NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                      OF
       VENSURE FEDERAL CREDIT UNION


              Report #OIG-12-05
              February 29, 2012




              William A. DeSarno
              Inspector General


                  Released by:




               James W. Hagen
            Deputy Inspector General
Table of Contents



      Section                                                 Page




     ACRONYMS AND ABBREVIATIONS                                ii


     EXECUTIVE SUMMARY                                         1


     INTRODUCTION AND BACKGROUND                               4


     OBJECTIVES, SCOPE, AND METHODOLOGY                        6


     RESULTS IN DETAIL                                         8


        A. Why NCUA Conserved Vensure Federal Credit Union     8


        B. NCUA Supervision of Vensure Federal Credit Union   11


     OBSERVATIONS AND LESSONS LEARNED                         17


     RECOMMENDATIONS                                          18


     APPENDIX


        A. NCUA Management Response                           20




                                                                     i
Acronyms and Abbreviations

ACH           Automated Clearing House
Board         Board of Directors
C&D           Cease & Desist
Call Report   NCUA 5300 Call Report
Crowe         Crowe Horwath LLP
DOJ           Department of Justice
DOR           Document of Resolution
EIC           Examiner in Charge
FCU           Federal Credit Union
FICU          Federally Insured Credit Union
FOM           Field of Membership
FPR           Financial Performance Reports
GAFCU         Grand Adirondack Federal Credit Union
Guide         NCUA Examiner’s Guide
LUA           Letter of Understanding and Agreement
MLR           Material Loss Review
NCUA          National Credit Union Administration
NCUSIF        National Credit Union Share Insurance Fund
NIFEA         National Investors Financial Education Association
OGC           Office of General Counsel
OIG           Office of Inspector General
PWL           Preliminary Warning Letter
RFE           Risk-Focused Examination
ROAA          Return on Average Assets
SE            Supervisory Examiner
Trinity       Trinity Global Commerce Corp.
UIGEA         Unlawful Internet Gambling Enforcement Act
Vensure       Vensure Federal Credit Union




                                                                   ii
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review
(MLR) of Vensure Federal Credit Union (Vensure), a federally insured credit union
(FICU). We reviewed Vensure to: (1) determine the cause(s) of the Credit Union’s
failure and the resulting estimated $39 thousand loss to the National Credit Union
Share Insurance Fund (NCUSIF); (2) assess NCUA’s supervision of the Credit
Union; and (3) make appropriate recommendations to prevent future losses. To
achieve these objectives, we analyzed NCUA examination and supervision reports
and related correspondence; interviewed NCUA management and staff from
Regions I and V; reviewed NCUA guidance, including regional policies and
procedures, NCUA 5300 Call Reports (Call Report), and NCUA Financial
Performance Reports (FPR). 1

Although the anticipated loss to the NCUSIF for Vensure does not meet the
statutory loss threshold to require a MLR, 2 the NCUA OIG has identified the
circumstances surrounding the conservatorship of Vensure to be unusual in nature
and therefore determined a MLR be performed.

We determined NCUA placed Vensure Federal Credit Union into conservatorship
for the following reasons:

    •    U.S. Attorney Action

         On April 15, 2011, the Department of Justice (DOJ) unsealed an indictment
         against three leading on-line poker companies, which included Pokerstars,
         and Full Tilt Poker. Also at this time, the DOJ seized all funds of one of
         Vensure’s members - Trinity Global Commerce Corp. (Trinity), a processor of
         on-line gambling transactions for these two companies. Trinity was
         Vensure’s largest single depositor at the time and because Vensure derived
         nearly all of its income from transaction fees generated for processing
         Trinity’s internet gambling transactions, 3 Vensure did not have adequate
         capital on hand after the DOJ seized Trinity’s assets to absorb its Automated
         Clearing House (ACH) returns.


1
  See Objectives, Scope, and Methodology section of this report for additional details.
2
  The FCU Act, 12 U.S.C. § 1790d, §216(j) requires that the OIG conduct a review when the NCUSIF has
incurred a material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of
$25 million and (2) an amount equal to 10 percent of the total assets of the credit union at the time at which the
Board initiated assistance or was appointed liquidating agent.
3
  Internet gambling transactions were determined to be a violation of the Unlawful Internet Gambling
Enforcement Act (UIGEA). UIGEA was published in November 2008 and the compliance requirements for
credit unions became effective June 1, 2010. NCUA issued Regulatory Alert 10-RA-08 to all federally insured
credit unions to provide an overview of UIGEA and the joint rule, a summary of the obligations of participants,
and examination procedures. The UIGEA AIRES questionnaire was provided to examiners on August 27, 2010
with the requirement that examiners begin reviewing for compliance with UIGEA in all federal credit union
examinations with accounts subject to UIGEA after December 31, 2010.
                                                                                                                1
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



    •   Inadequate Management and Board of Directors (Board) Oversight

        Vensure’s management and Board exposed the credit union to excessive
        amounts of financial risk due to its affiliation with high risk members and a
        high risk business model. Specifically, Vensure’s management and Board
        failed to manage the credit union’s risk related to its ACH payment
        processing activity for a member that processed payments for internet
        gambling websites.

    •   Business Model

        Vensure’s management and Board did not operate the credit union in a
        manner consistent with typical natural person credit unions. Although
        Vensure’s Board indicated within its October 2009 business plan that the
        credit union’s intent was to make loans and serve its members, it had
        minimal loans in 2009 and no loans during 2010 and 2011. In addition,
        member shares were significantly concentrated in accounts controlled by the
        Board as well as Trinity. As previously noted, Vensure derived a majority of
        its revenue from ACH payment processing fees associated with processing
        internet gambling payments for this member. When DOJ’s actions
        essentially eliminated Vensure’s ACH payment processing revenue stream,
        Vensure had insignificant traditional sources of earnings to provide for
        continued credit union operations.

NCUA Supervision

NCUA’s Region I supervised Vensure from formation through early 2010 when
supervision changed from Region I to Region V as a result of Vensure’s move from
New York to Arizona. Through examinations and supervision contacts of Vensure,
Region I had identified numerous operational and governance issues and had taken
measures to have its management and Board correct them. However, NCUA
Region I examiners did not readily identify the nature or scope of the majority of
Vensure’s Earnings component (i.e. fee income) during an examination or two
supervisory contacts conducted in 2009, despite the credit union having significant
and steady increases in non-interest income throughout the year.

Although a Region I targeted exam in the 4th quarter of 2009 focused on a review of
the controls over ACH and wire transactions, the review did not identify the
underlying source of the funds or nature of the activity that was creating the large
amount of fee income for such a small credit union. Three DOS reviews conducted
during May, June and October 2009 commented on the increasing level of fee
income and need to follow up in depth regarding the ACH transaction activity and
Wire transfer controls. A review of 2009 Call Report data and financial performance
ratios provided examiners with indicators that Vensure was experiencing significant
and rapid increases in fee income where traditional sources of fee income did not
exist. We believe these increases and the recommendations by the DOS reviews
                                                                                        2
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



should have prompted a more detailed exploration by examiners into the volume
and nature of the activities that were creating the increased fee income.

We believe had examiners looked behind the numbers into the source of the
significant fee income activity, the credit union’s involvement in processing illegal
internet gambling proceeds may have been uncovered sooner, possibly before
examiners released the credit union from an unpublished Letter of Understanding
and Agreement (LUA). 4 In addition, we believe Vensure’s management and Board
did not appear forthright to examiners by disclosing their ties to processing internet
gambling payments on behalf of Trinity. Ultimately, examiners did not identify
Vensure’s role in processing internet gambling payments until a March 31, 2010
limited examination (Effective Date) performed by Region V, which also included
the use of a specialist in ACH payments.

We are making four observations and two recommendations as a result of our
review of the conservatorship of Vensure. Although the lessons learned appear to
be common sense in nature, we believe examiners need to be reminded of these
important lessons as evidenced by the results of this MLR. These include
examiners performing adequate due diligence when working with a new
management team and Board; being aware when a credit union changes its
business model and all the necessary inquiries brought about by such a change;
looking behind the numbers for answers to explain why significant changes or
questionable items occur, and finally, seeking assistance from Supervisory
Examiners or other experts when confronted with issues in areas outside the
examiner’s comfort zone.

Based on the above, we recommended NCUA management remind examiners to
fully evaluate questionable items in financial data consistent with a reasonable risk
assessment and evaluation of the level of risk exposure, and to seek assistance
from Supervisory Examiners or other specialists when significant risk issues are
identified. We also recommended NCUA management develop additional off-site
monitoring triggers for Call Reports and other financial performance reports.

As the OIG identifies major causes, trends, and common characteristics of credit
union failures in its Material Loss Reviews, including recommendations, we will
communicate those to NCUA management for its consideration. As resources
allow, the OIG may also conduct more in-depth reviews of specific aspects of the
NCUA’s supervision program, and make recommendations, as warranted.

We appreciate the effort, assistance and cooperation NCUA management and staff
provided to us during the review.




4
 In March 2009, examiners issued a LUA to Vensure’s management and Board based on concerns with
operational and governance deficiencies within the credit union.
                                                                                                  3
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Introduction and Background

The National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) contracted with Crowe Horwath, LLP (Crowe) to conduct a Material Loss
Review (MLR) of Vensure Federal Credit Union (Vensure) as required by Section
216 of the Federal Credit Union Act (FCU Act), 12 U. S. C. 1790d(j).

History of Vensure Federal Credit Union

NCUA chartered the credit union in 1955 as Grand Adirondack Federal Credit
Union (GAFCU) to serve members of Grand Adirondack Lodge #426 of the Knights
of Pythias, in New York, New York. In early 2008, GAFCU applied for a field of
membership (FOM) expansion to include the members of the National Investors
Financial Education Association (NIFEA) living or working in New York City, then a
group of 68. In addition, GAFCU’s board began to transition from the original
Directors affiliated with the Knights of Pythias, to new Directors that were seeking to
change the credit union’s FOM. At this time, the credit union had approximately
$31,000 in assets (as of December 31, 2007), 26 members, one office, and no
website.

On April 23, 2008, NCUA approved the FOM expansion and amended the credit
union’s charter to include members of the Manhattan Chapter of the NIFEA, located
in New York, New York in accordance with its bylaws in effect March 31, 2008.
Because NCUA’s Chartering and Field of Membership policy permits the addition of
non-natural person members, and Region I found no indication of potential abuse,
GAFCU’s amended FOM was not restricted to natural person members.

Prior to the addition of the Manhattan Chapter of the NIFEA, Vensure was a very
small credit union, offering only basic loan and share products. Examiners had
described it as “self-liquidating” due to an aging membership that saw its assets
declining steadily from approximately $74 thousand to $31 thousand between
December 1999 and December 2007 as well as shares falling from approximately
$61 thousand to just over $19 thousand during the same period. In addition, the
credit union had not granted one loan since 2001 and had not reported any loans
on its books since 2002. Its CAMEL Composite rating had fluctuated between a 2
and 3 since 1998 due to repetitive strategic and transaction risk issues.

In early 2009, the credit union relocated to Gilbert, Arizona. At the time, the credit
union’s management and Board indicated the reason for the relocation was to serve
a new FOM, one related to Vensure Employer Services. However, management
never made a formal request to the NCUA for a change in the FOM prior to the
move. Also, in connection with the move and in consideration of its intended new
FOM, the Board (without prior approval from NCUA) changed the credit union’s
name to Vensure Federal Credit Union. NCUA later formally approved the name
change and the expanded FOM on March 1, 2010. During this transition, the books
and records resided with the Treasurer, who lived in Florida for a period of time.
                                                                                     4
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



From 2009 until the NCUA placed the credit union in conservatorship, Vensure’s
increase in assets and fee income was substantially related to the activity from a
small number of members, with the most significant level of fee income being
derived from processing ACH transactions related to on-line gambling activities for
one member.

On April 15, 2011, NCUA placed Vensure into conservatorship. The NCUA
estimates the loss to the NCUSIF at $39,043; however, the final loss could be
higher once the NCUA learns whether the DOJ will later seek to recover Vensure’s
earnings related to processing illegal internet gambling ACH transactions on behalf
of Trinity.

NCUA Examination Process

The NCUA uses a total analysis process that includes collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL components and reviewing qualitative and quantitative measures. The
NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union’s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union’s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis 5, trend analysis 6, reasonableness analysis 7,
variable data analysis 8, and qualitative data analysis. 9 Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.
Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the
numbers to determine the significance of the supporting ratios and trends.
Furthermore, the NCUA requires examiners to determine whether material negative
trends exist; ascertain the action needed to reverse unfavorable trends; and


5
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
6
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
7
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
8
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
9
  Qualitative data includes information and conditions that are not measurable in dollars and cents.
                                                                                                                5
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



formulate, with credit union management, recommendations, and plans to ensure
implementation of these actions.

Risk-Focused Examination Program

In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include both off-site and on-site work that
includes reviewing off-site monitoring tools and risk evaluation reports. The RFE
process includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks may
include: (a) reviewing the prior examination report to identify the credit union’s highest
risk areas and areas that require examiner follow-up, and (b) analyzing Call Reports
and direction of the risks detected in the credit union’s operation and on management’s
demonstrated ability to manage those risks. A credit union’s risk profile may change
between examinations. Therefore, the supervision process encourages the examiner
to identify those changes in profile through:

     •   Review of Call Reports;

     •   Communication with credit union staff; and

     •   Knowledge of current events affecting the credit union.

Objectives, Scope and Methodology

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material
loss review when the NCUSIF has incurred a material loss. 10 Moreover, the 2010
amendments to the FCU Act, embodied in the “Dodd-Frank Wall Street Reform and
Consumer Protection Act,” 11 further require the OIG to conduct an in-depth review
of any loss to the NCUSIF where unusual circumstances exist that might warrant an
in-depth review of the loss. In the case of Vensure, the OIG determined the
circumstances surrounding the loss to the NCUSIF were unusual enough to warrant
a review, even though the loss did not exceed the $25 million threshold.
Specifically, the OIG determined the indictment brought by the DOJ for illegal
internet gambling and its connection traced to Vensure through ACH processing,
warranted the OIG performing a full-scope MLR.

Our audit objectives were to: (1) determine the cause(s) related to the
conservatorship of Vensure and the resulting loss to the National Credit Union
Share Insurance Fund (NCUSIF); (2) assess NCUA’s supervision of the credit
union, and (3) make appropriate observations/recommendations to prevent future
losses.
10
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.
11
   Public Law 111-203–July 21, 2010, 124 Stat.1939.
                                                                                                                 6
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



We conducted this review from September 2011 to January 2012 in accordance
with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained as described in the Scope and
Methodology section, provides a reasonable basis for our findings and conclusions
based on our audit objectives.

The scope of this audit included an analysis of Vensure from 2008 to April 15, 2011,
the date the NCUA placed the credit union in conservatorship. Our review also
included an assessment of NCUA regulatory supervision of the institution during the
same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

•      We analyzed NCUA examination and supervision contact reports and related
       correspondence and workpapers contained within the AIRES 12 system.

•      We interviewed management and/or staff from NCUA Regions I and V and
       reviewed NCUA guides, policies and procedures, as well as NCUA Call Reports,
       and NCUA Financial Performance Reports (FPR).

•      We reviewed Vensure data and correspondence maintained at the NCUA in
       Tempe, Arizona as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA
Region I and V officials, including information and other data collected during
interviews. We relied on our analysis of information from management reports,
correspondence files, and interviews to corroborate data obtained to support our
audit conclusions. We conducted interviews to gain a better understanding of
decisions made regarding the activities of credit union management and the
NCUA’s supervisory approach, and to clarify information and conclusions contained
in reports of examination and other relevant supervisory correspondence between
the NCUA and Vensure. Crowe relied on the information provided in the interviews
without conducting additional specific audit procedures to test such information.




12
     AIRES is NCUA’s Automated Integrated Regulatory Examination System.
                                                                                    7
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Results in Detail

We determined that Vensure’s management and Board contributed to the
conservatorship and liquidation as well as the resulting loss to the NCUSIF. In
addition, we determined Region I examiners could have prevented or mitigated the
loss to the NCUSIF had they adequately identified and more aggressively pursued
Vensure’s primary source of income.

A. Why NCUA Conserved Vensure Federal Credit Union

 Department of Justice          We determined NCUA conserved Vensure primarily
 Actions and Inadequate         due to the actions taken by the DOJ, which unsealed
 Management Oversight           an indictment against several leading on-line poker
 Contributed to Vensure’s       companies13 that were in violation of the UIGEA.
 Conservatorship                Specifically, the DOJ’s actions included the seizure of
                                approximately $3 billion of assets related to these
                                poker companies, which included the seizure of all
property and funds held on account with Vensure that were traceable to one of its
members, Trinity, a processor of internet gambling transactions for on-line poker
companies. In addition to Vensure, the DOJ indictment identified more than 20
other financial institutions that also processed internet gambling transactions.

We determined inadequate management and Board oversight also contributed to
the conservatorship of Vensure, which exposed the credit union to excessive
amounts of financial risk due to its affiliation with a high risk member and a high risk
business model. Management allowed Trinity to become Vensure’s single largest
depositor. At the time the DOJ seized all of Trinity’s funds on account with
Vensure, the credit union did not have sufficient capital to absorb any ACH returns.
The DOJ’s actions eliminated Vensure’s ability to generate fee income from
processing internet gambling payments. Vensure management’s overreliance on
fee income derived from processing internet gambling transactions and lack of
traditional sources of income caused the credit union to become insolvent once
they could no longer process these transactions.

In regards to Trinity’s ACH payment processing activities:

       •   Vensure’s management and Board were not forthcoming to examiners
           regarding its ACH FedWire transactions being for internet gambling
           activities. In an October 2009 strategic plan approved by the Board, the plan
           made no mention that the credit union’s ACH FedWire activities were related
           to internet gambling processing; despite the fact management had already
           entered contracts related to this activity from which it derived a significant
           portion of its revenue.


13
     The DOJ indictment included two internet gambling companies with ties to Vensure, Pokerstars and Full Tilt.
                                                                                                               8
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



    •   Vensure’s management and Board did not disclose the ACH payment
        processing to examiners until early in 2010 when Region V examiners began
        questioning Trinity’s ACH transactions and discovered the transactions were
        tied to internet gambling activities executed by Pokerstars. However, we
        believe Vensure management’s actions clearly show they were aware that
        Trinity was processing gambling transactions due to the fact that they
        (management) had obtained legal opinions in March and August 2009 to
        support the legality of processing these transactions. Management’s actions
        clearly show they were aware that the ACH activities had an unusual degree
        of risk.

    •   During May 2010, Region V officials expressed concerns and issued
        warnings to the credit union concerning the processing of payments for
        Pokerstars; however, Vensure subsequently added processing of payments
        for another online poker company, Full Tilt.

    •   During 2010, Region V examiners estimated that Vensure derived 90
        percent of its revenue from fees for processing internet gambling
        transactions.

    •   On April 15, 2011, the DOJ unsealed an indictment against the three leading
        on-line gambling companies, including Pokerstars and Full Tilt, which had
        funds traceable to Vensure, through Trinity. Also at this time, the DOJ
        seized all of Trinity's funds on account with Vensure, which ultimately led to
        the NCUA placing Vensure into conservatorship.

    •   Region V examiners determined Vensure did not have a sustainable source
        of revenue to support its operations after the DOJ’s actions eliminated their
        primary source of income.

    •   After the DOJ seized Trinity’s funds, Vensure had an ACH receivable of
        approximately $877,000 as a result of subsequent return items. Vensure
        sent a demand letter to Trinity on June 22, 2011 requesting the receivable to
        be paid within seven days, which Trinity failed to do. When Vensure
        recognized the loss from the uncollectible ACH receivable, the credit union
        became insolvent.

Vensure management did not conduct operations in the manner of a typical natural
person credit union. Although Vensure’s Board indicated its intent to operate the
credit union to serve the employees of Vensure Employment Services (its FOM)
and to offer traditional deposit and loan services to its members, it had minimal
loans in 2009 and no loans during 2010 and 2011. In addition, member shares
were concentrated in accounts controlled by members of the Board and Trinity.
Following are other indicators that the Board did not operate Vensure as a typical
natural person credit union:

                                                                                        9
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



    •   Vensure derived 90 percent of its revenue in 2010 and 2011 from one
        member, Trinity, from fee activity associated with processing ACH payments.

    •   Regulatory findings in 2009 through 2011 identified numerous issues with
        inadequate policies, procedures, and systems to operate the credit union.

    •   Regulatory findings beginning in 2010 identified numerous conflicts of
        interest including Board members obtaining various sources of income from
        Vensure.

    •   The Board failed to implement an effective governance structure including
        the lack of sufficient independent supervisory committee members and failed
        to obtain external and other required audits on a timely basis, including a
        Bank Secrecy Act audit.

    •   The Board moved the physical location of the credit union from New York to
        Arizona during 2009 and failed to inform the NCUA of the change in
        locations. The move coincided with a period of time when the credit union’s
        books and records were believed to be located in Florida.

    •   The Board changed the credit union’s FOM two times after 2008.

Based on the above actions of the Board and management, we believe the Board
clearly did not adhere to its stated intention to serve the needs of employees of
Vensure Employment Services.




                                                                                    10
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



B. NCUA Supervision of Vensure Federal Credit Union

     Region I Examiners Did  We determined Region I examiners failed to readily
     Not Readily Identify or identify or adequately pursue the nature of Vensure’s
     Adequately Pursue the   primary source of income, ACH related fee activity,
     Source of Vensure’s     which was later determined to be tied to a criminal
     Fee Activity            violation of the UIGEA. This occurred despite Region I
                             examiners conducting an on-site risk-focused
supervisory contact specifically focused on Vensure’s FedWire controls and ACH
activities and procedures.

Examiners explained they did not identify the nature and scope of Vensure’s fee
activity because their primary focus was getting the credit union “back on track”
through the identification of issues such as appropriate record keeping, written
policies, a business plan, and appropriate operating procedures. As a result, we
believe Region I examiners not only missed uncovering what turned out to be an
elaborate money laundering scheme tied to illegal internet gambling involving
several Vensure members, but also could have prevented or mitigated the current
and potential loss to the NCUSIF.

NCUA’s Region I supervised Vensure from 1955 through 2009 when supervision
responsibility transferred to Region V in 2010 due to the credit union’s relocation to
Arizona. During 2009, Region I identified significant operational and governance
deficiencies with Vensure and had taken measures to have management and the
Board correct them, including the issuance of an LUA. Region I considered other
options to the LUA, including issuing a Cease and Desist, Conservatorship,
Liquidation, or Merger but determined the LUA was most appropriate based on the
credit union officials’ cooperation and response to the numerous governance issues
identified as well as the ability to restrict membership growth and operations under
the LUA.

NCUA Region I examiners identified the increase in non-interest income but did not
identify the nature of the specific activity that made up the majority of Vensure’s
Earnings component (i.e. fee income) during 2009, despite performing one regular
risk focused examination (Effective March 31, 2009) and two risk-focused on-site
supervision contacts 14, one of which was related specifically to Vensure’s ACH and
FedWire transfers.




14
     The risk-focused on-site supervision contacts had Effective Dates of June 30, 2009 and September 30, 2009.
                                                                                                            11
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Table 1 (below) provides detailed examination results from 2008 through 2010.

Table 1: Examination Results

 Examination          Exam      CAMEL           Capital
 Effective            Type      NCUA            / Net      Asset
                      15
 Dates                          Composite       Worth      Quality   Management        Earnings     Liquidity
 March 2008                10      3               1         2            3                3            2
 June 2008                 22      2               1         2            2                2            2
 March 2009                10      4               3         2            4                3            3
 June 2009                 22      3               2         2            3                3            2
 September 2009            22      3               2         2            3                3            2
 March 2010                22      3               2         2            3                3            2
 June 2010                 10      4               1         1            3                1            1
 December 2010             10      4               4         4            3                4            4

Region I Supervision

From 1999 through 2007, Vensure’s assets dropped steadily from $74 thousand to
$31 thousand, and its CAMEL Composite rating fluctuated between 2 and 3 due to
repetitive strategic and transaction risk issues. In 2008, the credit union’s FOM and
Board changed.

The June 30, 2008 examination (Effective Date) showed that shares, assets, and
loans had begun to increase. By year-end 2008, assets, shares, and loans had
increased to approximately $349,000, $324,000, and $12,000, respectively.
However, during the first quarter of 2009, the growth rates significantly increased
with assets expanding to approximately $2.1 million (a 510 percent increase),
shares to approximately $2 million (a 512 percent increase), and loans to
approximately $639,000 (a 5,371percent increase). The credit union subsequently
sold its loans to a Board member due to various regulatory violations.

The credit union’s profitability also increased over this period with the return on
average assets (ROAA) climbing from negative 2.61 percent in 2007 to 7.84
percent in 2008 and 40.38 percent (annualized) in March 2009. Most of this
increase came from fees and “other operating income” and not from loan or
investment income. Although the credit union’s profitability had increased and it
remained well capitalized, its net worth ratio declined sharply from 37.69 percent in
December 2007 to 7.32 percent in December 2008, eventually lowering to 7.06
percent in March 2009 as a result of the asset growth.




15
  Work Classification Code (Examination Type) 10 is a regular risk focused examination of a federally
chartered credit union, whereas an Examination Type 22 is an on-site risk-focused supervision contact.
                                                                                                          12
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Table 2 (below) demonstrates selected financial indicators and the growth
experienced by Vensure from 2007 through 2010.

Table 2: Selected Financial Data
 (in thousands)
                                   12/31/2007          12/31/2008          12/31/2009           12/31/2010
 Total Assets                          $ 31              $    349           $   2,273          $     2,706
 Net Worth                             $ 12              $     26           $     315          $       907
 Net Worth Ratio                      37.69%               7.32%              13.86%               33.52%

 Net Interest Income                    $     1           $       1          $        4        $             8
 Non-Interest Income                           -          $      14          $      436        $      1,812
 Net Income (Loss)                       $   (1)          $      15          $      290        $        592

Source: NCUA Form 5300.


On April 22, 2009, the president of the Arizona Credit Union League 16 contacted the
NCUA Supervisory Examiner (SE) of Region V to ask for information on GAFCU.
The league president told the SE that someone from GAFCU had contacted the
Arizona League about wanting to join due to its recent move to Gilbert, Arizona.
The Region V SE was unaware of GAFCU’s Arizona move and contacted Region I.

As a result of the unannounced move and other changes enacted by management
and the Board, Region I initiated a risk focused on-site examination in May 2009
(Effective March 31, 2009). At the conclusion of the examination, Region I
examiners assigned GAFCU a CAMEL Composite rating of 4 and issued an
unpublished LUA to management and the Board to address the following significant
operational deficiencies:

     •   Operating without familiarity with the Federal Credit Union Act, Bylaws, and
         Rules and Regulations;

     •   Operating without appropriate systems of recordkeeping;

     •   Overdue audit with the last audit having been completed as of December 31,
         2007;

     •   Operating without a formal strategic plan without adequate policies and
         procedures;

     •   Operating with a broader FOM than originally intended by NCUA’s approval
         of request to add membership of the NIFEA; and

16
  The Arizona Credit Union League is a trade organization which represents member credit unions located in
Arizona. League services include advocacy, education, and providing members with access to league
partnerships. In 2011, the Arizona Credit Union League was part of a three way merger to form the Mountain
West Credit Union League that represents member credit unions in Arizona, Colorado and Wyoming.
                                                                                                         13
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



    •   Impermissible loans issued.

In addition, the LUA also required GAFCU management and Board to:

    •   Obtain appropriate training;

    •   Select a data processing vendor and implement recordkeeping and internal
        controls;

    •   Obtain an audit of the financial statements;

    •   Develop a business plan, budget, and written policies;

    •   Cease accepting new members;

    •   Cease granting new loans; and

    •   Request approval for changes in the Board and executive officers.

In August 2009, Region I examiners conducted an on-site risk-focused supervisory
contact (Effective June 30, 2009) related to the issues raised in the LUA. The
results revealed that management and the Board were in substantial compliance
with the LUA and thus examiners upgraded the credit union from a CAMEL
Composite rating of 4 to a rating of 3. However, the LUA remained in place
pending management’s submission and Region I’s review of GAFCU’s business
plan.

Region I’s last supervisory contact prior to supervision responsibility changing to
Region V took place in December 2009 (Effective September 30, 2009). The
primary focus of this supervisory contact was a high level review of FedWire
controls and ACH activities and procedures. As previously mentioned, Region I
examiners did not identify the nature and scope of the credit union’s large amount
of fee activity, but did approve the credit union’s business plan and lifted the LUA
on February 19, 2010.

We believe through cycle to cycle Call Report and data analysis, Region I
examiners should have identified earlier in 2009 the significant and steady
increases in non-interest income derived from ACH activity concentrated in one
member. We also believe examiners should have considered these red flags when
planning and executing their risk-focused examination activities, especially in the
area of ACH/FedWire activities since the Call Report data clearly showed the credit
union generated its primary source of income from fee activity.

Vensure’s 5300 Call Reports indicate that during 2009, Vensure clearly acted as a
third-party ACH/FedWire processor, which inherently involves a higher level of risk.

                                                                                   14
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Some of the red flags identified related to Vensure’s ACH and FedWire activity
included:

    •   Significant and rapid increases in non-interest income during 2009,
        especially considering the small size, limited membership, and asset
        composition of the credit union;

    •   The supervision log listed numerous wires which were very large considering
        the size of the credit union.

Despite these red flags, Region I examiners failed to readily identify and adequately
pursue Vensure’s primary source of income, their ACH related fee activity, which
was later determined by the DOJ to be tied to a criminal violation of the UIGEA.

In 2008, NCUA issued Supervisory Letter 08-01 Evaluating Current Risks to Credit
Unions to bring to examiners’ attention emerging risks in the credit union industry.
Although Supervisory Letter 08-01 focused on issues related to the economic
climate at that time, it also alerted examiners to be aware of areas such as credit
unions changing business models and balance sheet composition, and the Risk
Focused Examination supervision program (with an emphasis on district
management and off-site monitoring).

During our interviews with Region I supervisory personnel, they indicated that the
focus of the examinations during 2009 were primarily directed at getting the credit
union back on track with appropriate record keeping, written policies, a business
plan, and appropriate operating procedures in line with the focus of the LUA.
Although Region I increased the level of supervisory contacts, the primary focus
remained on the items identified within the LUA. In addition, late in 2009, the credit
union’s increased fee income did cause Region I to direct a field examiner to review
ACH and FedWire controls, however the examiner’s review did not focus on the
nature of the activity creating the increased level of fees. In addition, Region I
never considered using an ACH specialist to review the activity, which might have
also identified the nature and scope of the rapidly increasing fee activity.

Region V Supervision

In February 2010, NCUA Region I lifted the LUA and transferred supervision of
Vensure to Region V. During Region V’s first supervisory contact (Effective March
31, 2010), examiners identified the source of Vensure’s fee activity was from
processing internet gambling payments that flowed through the credit union from
ACH transactions tied to one of its members, Trinity.

When Region V examiners further explored the nature and scope of the fee activity,
they determined Vensure had been processing electronic funds for its non-natural



                                                                                   15
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



person members 17 as far back as the third quarter of 2008, with electronic funds
transfer activity picking up significantly during 2009. Region V examiners also
learned that Vensure had entered into an ACH agreement with Trinity in early 2010,
which essentially committed Vensure to processing ACH transactions (i.e. internet
gambling payments) on behalf of Trinity. As previously discussed, Vensure derived
90 percent of its operating income from processing internet gambling payments.

Upon the identification of Vensure’s internet gambling related ACH transactions,
Region V examiners also sought legal advice from NCUA’s Office of General
Counsel (OGC). Region V examiners continued to communicate with the OGC as
various legal issues surrounding the processing of internet gambling payments
were vetted and during the time that a federal investigation into the online poker
companies was ongoing. Also at this time, examiners issued a Document of
Resolution (DOR) to Vensure’s management and Board requiring them to obtain
legal opinions from each state from which internet gambling activity had originated
or Vensure had executed an ACH payment transaction. Examiners wanted
Vensure management to provide this information to support the legality of their ACH
FedWire processing transactions. In addition, the DOR also required Vensure
management to increase its reserves related to ACH payment activity and cease
processing all of Trinity’s transactions until such time that OGC could review the
requested legal opinions.

In November 2010, Region V examiners had begun a regular risk focused
examination (Effective June 30, 2010) and OGC had completed its review and
concluded that the opinions Vensure management had obtained failed to address
the legality of internet gambling. Examiners, however, delayed the examination’s
completion pending a decision on how best to address Vensure’s ACH processing
of internet gambling transactions.

Initially, Region V officials considered issuing a Cease & Desist Order (C&D) that
would instruct Vensure management to cease all ACH processing related to
internet gambling transactions until such time they could secure documentation
attesting to its legality. After consulting with OGC, Region V officials determined a
C&D was not the most appropriate course of action, and instead issued a
Preliminary Warning Letter (PWL). On January 18, 2011, Region V issued a PWL
to Vensure management requiring them to stop ACH/FedWire processing for their
member until they obtained the proper legal opinions under UIGEA. 18 We
determined in subsequent examinations that not only had Vensure management
failed to stop processing payments for Trinity stemming from the aforementioned
DOR, but they had entered into an agreement on December 1, 2010 to process
payments for two additional on-line gambling companies.


17
   Prior to this contract, Trinity had processed its ACH transactions through M2 Global, another Vensure
member.
18
   According to a Memorandum from the NCUA’s Associate General Counsel, on-line gambling transactions are
not permissible according to the UIGEA.
                                                                                                      16
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Region V examiners then learned through Vensure’s CEO that the credit union
continued to process ACH FedWire transactions related to internet gambling
payment activity. Region V examiners scheduled an on-site supervision contact for
January 27, 2011 to ascertain the status of Vensure management’s compliance
with the PWL. The credit union’s CEO and Treasurer indicated that the Board met
and decided to fully comply with the PWL going forward and that all processing of
ACH transactions related to processing internet gambling payments would cease
immediately. The next day, Vensure management submitted a letter confirming
that they would cease the activity.

Subsequent to the letter Vensure management submitted indicating they would
cease all ACH processing activity, Vensure management sent a second letter to the
Region V Regional Director indicating that because they were required to meet their
fiduciary responsibility toward its member, Trinity, Vensure had terminated the
contract within the 180-day notice requirement, but would not cease processing
ACH transactions related to internet gambling payments until a determination by a
competent legal authority had occurred through the NCUA in either an
administrative hearing or a court of law.

Region V examiners confirmed that by the week of March 31, 2011 Vensure
management was still processing ACH transactions related to on-line gambling
payments. On April 15, 2011, the DOJ unsealed an indictment against the three
leading on-line poker companies, including Pokerstars and Full Tilt. Also at this
time, the DOJ seized all of Trinity's funds on account with Vensure, which ultimately
led to the NCUA placing Vensure into conservatorship on the same date.

Region V officials worked closely with NCUA OGC to determine the appropriate
regulatory action related to the internet gambling payment activity Vensure
processed for its members. This close interaction allowed Region V officials to
coordinate the conservatorship of Vensure to coincide on the same date as when
the U.S. Attorney initiated a forfeiture action against Trinity and seized its funds on
deposit at Vensure.

Observations and Lessons Learned

We believe the significant and rapid increase in Vensure’s fee related income, as
well as the size of the individual and cumulative ACH wire transactions given the
small size of the credit union, the significant change in the make-up of its
management and Board, and its few traditional sources of income, should have
triggered Region I examiners to expand the scope of their on-site examinations and
supervision contacts to thoroughly evaluate the credit union’s income to determine
the nature of its source and why it increased so rapidly. In addition, we also believe
Region I examiners’ off-site monitoring of Call Reports and other financial
performance data should have also identified this same questionable income
activity and triggered examiners to look into the matter further.

                                                                                      17
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Also, despite Region I having an examiner review the controls over Vensure’s ACH
and FedWire activities during 2009, there was no detailed review by examiners
regarding the nature and scope of the business fee income during this same time
period. We also found no evidence that Region I examiners extensively questioned
Vensure’s management and Board about its new business model, which may have
also uncovered the nature and scope of the credit union’s fee activity.

We believe the credit union’s Call Reports and other financial performance ratios
also provided clear indicators that the credit union was experiencing significant and
rapid increases in fee income, where traditional sources of fee income did not exist.
This too should have prompted examiners to perform further analysis on the source
of the activity that was generating the significant fee income.

Important lessons learned from our review of this conservatorship include:

    •   Examiners must perform adequate due diligence when working with a new
        management team and Board. Inquiring with management regarding
        business plans and operations to gain an understanding as well as
        assessing management’s ability to competently carry out those plans is
        crucial. In addition, examiners must consider operational results in its
        understanding and assessment of managements’ plans.

    •   Examiners must be aware when a credit union changes its business model
        and perform all necessary inquiries.

    •   When examiners identify significant changes or questionable transactions in
        the balance sheet, Call Reports, and other financial performance data, they
        must look behind the numbers for answers to explain why such changes are
        occurring.

    •   Examiners must seek assistance from Supervisory Examiners or other
        experts in an area, such as ACH/FedWire transactions, if an explanation for
        why numbers are rapidly increasing or decreasing cannot be found.

Recommendations

Based on the findings in this report, we are making the following two
recommendations to NCUA management:

    1. Remind examiners to fully evaluate questionable items in financial data
       consistent with a reasonable risk assessment and evaluation of the level of
       risk exposure, and to seek assistance from Supervisory Examiners or other
       specialists when significant risk issues are identified.



                                                                                   18
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Management Response

Management agreed with the recommendation and will take action to implement
plans to address the issue through the soon to be released National Supervision
Policy Manual. The Manual will emphasize the importance of evaluating financial
trends and instruct examiners to recommend specialized resources in consultation
with their supervisor when warranted based on the size, complexity, or potential risk
to the National Credit Union Share Insurance Fund.

OIG Response

We concur with management’s planned actions.

Recommendation

    2. Develop additional off-site monitoring triggers for Call and other financial
       performance reports, including specific procedures to require supervising
       examiners to review and sign off on those items raised as “red flag‟ issues to
       ensure such items are fully investigated by examiners.

Management Response

Management agreed with the recommendation and will continue to explore whether
they need to develop additional risk triggers when performing reviews of risk and
FPR triggering reports.

OIG Response

We concur with management’s planned actions to continually review and evaluate
the battery of risk reports to determine whether additional risk triggers are needed.
The OIG will also ensure during follow-up on this recommendation that the newly
developed 5300/FPR Trending System includes specific procedures that require
supervising examiners to review and sign off on those items raised by examiners as
“red flag” issues.




                                                                                  19
Material Loss Review – Vensure Federal Credit Union
OIG-12-05



Appendix A - Management Response




                                                      20
Material Loss Review – Vensure Federal Credit Union
OIG-12-05




                                                      21
Material Loss Review – Vensure Federal Credit Union
OIG-12-05




                                                      22
